Consolidated Report on EPA's Leaking
Underground Storage Tank Program
               EPA Office of Inspector General
               Consolidated Report on EPA's Leaking Underground
               Storage Tank Program
                                              #6100264



                               TABLE OF CONTENTS

 •   EXECUTIVE SUMMARY
 •   CHAPTERS
       o 1-
             INTRODUCTION
             PURPOSE
             BACKGROUND
             SCOPE AND METHODOLOGY
             EVIDENCE EXAMINED
             INTERNAL CONTROLS
       o 2-
             SOME HIGH RISK SITES NOT CLEANED UP
       o 3-
             COST RECOVERY PROGRAMS NEED IMPROVEMENTS
       o 4-
             ACTIVITY REPORTS MISLEADING
       o APPENDIX
             APPENDIX A - ACRONYMS
             APPENDIX B - OSWER RESPONSE TO DRAFT REPORT - (Available only in hard
               copy)
             APPENDIX C - REPORT DISTRIBUTION
